Report No. DODIG-2012-138               September 26, 2012





         Wholesale Accountability Procedures Need 

        Improvement for the Redistribution Property 

               Assistance Team Operations

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACC-RI                        Army Contracting Command-Rock Island
AFSB                          Army Field Support Brigade
ASC                           Army Sustainment Command
AWRDS                         Army War Reserve Deployment System
CECOM                         Communications-Electronics Command
COR                           Contracting Officer’s Representative
DAGR                          Defense Advanced Global Positioning System (GPS)
                                 Receiver
DCMA                          Defense Contract Management Agency
LMP                           Logistics Modernization Program
MRAP                          Mine Resistant Ambush Protected
PBUSE                         Property Book Unit Supply Enhanced
PWS                           Performance Work Statement
QAR                           Quality Assurance Representative
RPAT                          Redistribution Property Assistance Team
TACOM                         TACOM Life Cycle Management Command
TPE                           Theater Provided Equipment
                                INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500



                                                                      September 26, 2012

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               COMMANDER, DEFENSE CONTRACT MANAGEMENT
                 AGENCY-KUWAIT

SUBJECT: Wholesale Accountability Procedures Need Improvement for Redistribution
         Property Assistance Team Operations
         (Report No. DODIG-2012-138)

We are providing this report for review and comment. From October 18 through
December 18, 2011, Camp Virginia Redistribution Property Assistance Team officials
relieved units of accountability for approximately 2,300 vehicles and 24,600 items. The
Army did not have adequate controls over the accountability of these items. This is one
in a series of reports on Redistribution Property Assistance Team operations in Kuwait.

We considered management comments on a draft of this report when preparing the final
report. The Executive Deputy to the Commanding General, Army Materiel Command,
endorsed and forwarded comments from the Executive Director, Army Sustainment
Command. The Army Sustainment Command comments were responsive and
conformed to the requirements of DoD Directive 7650.3; therefore, we do not require
additional comments. The Executive Deputy to the Commanding General and the
Commander, U.S. Army Contracting Command, endorsed and forwarded comments from
the Executive Director, U.S. Army Contracting Command-Rock Island. The U.S. Army
Contracting Command-Rock Island comments on Recommendations 2.a, 2.b, and 2.c
were either responsive and conformed to the requirements of DoD Directive 7650.3 or
were partially responsive but met the intent of the recommendation. Therefore, we do not
require additional comments. However, comments on Recommendation 2.d were not
responsive. Therefore, we request that the Executive Director, U.S. Army Contracting
Command-Rock Island comment on Recommendation 2.d by November 26, 2012.
Lastly, Defense Contract Management Agency International comments were responsive
and conformed to the requirements of DoD Directive 7650.3; therefore, we do not require
additional comments.

If possible, send a portable document format (.pdf) file containing your comments to
audjsao@dodig.mil. Comments provided to the final report must be marked and portion-
marked, as appropriate, in accordance with DoD Manual 5200.01. Copies of your
comments must have the actual signature of the authorizing official for your organization.
We are unable to accept the /Signed/ symbol in place of the actual signature. If you
arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).



                                             Amy J. Frontz
                                             Principal Assistant Inspector General
                                               for Auditing
Report No. DODIG-2012-138 (Project No. D2012-D000JA-0110.000)              September 26, 2012


               Results in Brief: Wholesale Accountability
               Procedures Need Improvement for
               Redistribution Property Assistance
               Team Operations
                                                         approximately $33.0 million, were not
What We Did                                              accounted for timely; and 14 vehicles, valued at
We determined whether the Army had                       approximately $5.5 million, had multiple
accountability over major end items of                   records in the inventory systems. Inaccurate or
equipment (Class VII) turned-in at                       delayed accountability of items in the inventory
Camp Virginia, Kuwait. From October 18                   systems does not accurately represent the
through December 18, 2011, Camp Virginia                 Army’s assets and increases the vulnerability for
Redistribution Property Assistance Team                  loss or theft.
(RPAT) officials relieved units of accountability
for approximately 2,300 vehicles and                     What We Recommend
24,600 items. This is one in a series of reports         Among other recommendations, we recommend
on RPAT operations in Kuwait.                            that the Commander, ASC, conduct a
What We Found                                            reconciliation of all items turned-in at
                                                         Camp Virginia, and that the Executive Director,
The Army did not have adequate controls over
                                                         ACC-RI, determine whether any remedial
the accountability of items turned-in at the
                                                         actions are appropriate for not meeting contract
Camp Virginia RPAT yard. Specifically, Camp
                                                         requirements. We also recommend that the
Virginia RPAT contractors did not use
                                                         Executive Director, ACC-RI, and the
automated procedures to obtain wholesale
                                                         Commander, DCMA-Kuwait, determine
accountability, properly upload items into the
                                                         whether any administrative actions against
visibility system, or account for all
                                                         contract oversight officials are appropriate, and
Communications-Electronics Command items at
                                                         that the Executive Director, ACC-RI, update the
Camp Virginia. This occurred because Army
                                                         performance work statement to include specific
Sustainment Command (ASC) and Army
                                                         RPAT requirements.
Contracting Command-Rock Island (ACC-RI)
officials did not update the performance work
statement, and ACC-RI and Defense Contract               Management Comments and
Management Agency (DCMA)-Kuwait officials                Our Response
did not appoint a contracting officer’s                  ASC and DCMA International comments were
representative until 5 months after the contractor       responsive to the recommendations, and no
began operations. In addition, the quality               additional comments are required. ACC-RI
assurance representative and contracting officer         comments on Recommendations 2.a-c were
representative’s audits of the contractor did not        responsive or partially responsive and met the
provide assurance that the contractor met                intent of the recommendation; therefore, no
contract requirements.                                   additional comments are required. Lastly,
                                                         ACC-RI comments to Recommendation 2.d
As a result, of the 297 reviewed items turned-in         were not responsive and comments to the final
at the Camp Virginia RPAT yard, 84 items,                report are required. Please see the
valued at approximately $6.0 million, were not           recommendations table on the back of this page.
accounted for; 149 items, valued at

                                                     i
Report No. DODIG-2012-138 (Project No. D2012-D000JA-0110.000)      September 26, 2012

Recommendations Table

        Management                     Recommendations      No Additional Comments
                                      Requiring Comment           Required
Commander, Army Sustainment                                1.a-c
Command
Executive Director, Army        2.d                        2.a-c
Contracting Command-Rock
Island
Commander, Defense Contract                                3.a-b
Management Agency-Kuwait

Please provide comments by November 26, 2012.




                                           ii
Table of Contents
Introduction                                                                  1     


      Objective                                                               1     

      Background                                                              1     

      Systems That Provide Accountability and Visibility of Equipment         2

      Process to Establish Wholesale Accountability                           3

      Review of Internal Controls                                             3


Finding. Army Needs to Improve Wholesale Accountability Procedures            5


      Accountability and Oversight Requirements                               5

      Better Controls Needed for the Accountability of Items                  6

      Performance Work Statement and Contract Oversight Need Improvement      8

      Changes Needed to Improve the Accountability of Items                  10 

      Improving the Efficiency and Effectiveness of Other Redistribution 

             Property Assistance Team Operations                             12 

      Management Actions Taken to Improve Wholesale Accountability           12 

      Recommendations, Management Comments, and Our Response                 12 


Appendix

      Scope and Methodology                                                  16 

           Use of Computer-Processed Data                                    17 

           Prior Coverage                                                    17 


Management Comments

      Army Materiel Command Comments                                         19 

      Army Sustainment Command Comments                                      20 

      Army Contracting Command Comments                                      23 

      Army Contracting Command Rock-Island Comments                          24 

      Defense Contract Management Agency Comments                            27 

Introduction
Objective
Our objective was to determine whether DoD had accountability over major end items of
equipment (Class VII) turned-in at the Camp Virginia, Kuwait, Redistribution Property
Assistance Team (RPAT) yard. This is one in a series of reports on RPAT operations in
Kuwait. The first report addressed whether DoD officials effectively managed the
equipment turn-in process at the Camp Virginia RPAT yard.1 This report discusses the
subsequent wholesale property accountability process and data management of the
equipment. See the appendix for a discussion of the audit scope and methodology and
prior audit coverage related to the audit objective.

Background
The 402nd Army Field Support Brigade (AFSB) established RPAT operations in Iraq and
Kuwait to facilitate and assist the redeployment of U.S. forces from Iraq. The overall
mission of the RPAT was to facilitate the turn-in of all excess major end item Theater
Provided Equipment (TPE), improve property accountability, and enable asset visibility
of the equipment received. The RPAT allowed redeploying U.S. forces to have their
property book cleared by the appropriate authority to provide immediate relief of
accountability and turn-in of TPE.

Camp Virginia RPAT Operations
The mission of the Camp Virginia RPAT was to relieve self-redeploying units2 of their
TPE, clear their property book, and prepare them to redeploy to their home stations. The
self-redeploying units turned in the majority of their equipment in Iraq before driving to
Camp Virginia to turn in their TPE.

The Camp Virginia RPAT yard was fully operational on June 30, 2011, although the first
unit did not process through the RPAT yard until October 2011. From October through
December 2011, Camp Virginia RPAT officials relieved units of accountability for
approximately 2,300 vehicles and 24,600 pieces of nonrolling equipment.

Roles and Responsibilities for RPAT Operations at
Camp Virginia
The 402nd AFSB, a subordinate of the U.S. Army Sustainment Command (ASC), had
overall responsibility for theater property accountability, retrograde, and reset of
equipment in Kuwait. The Army Field Support Battalion-Kuwait and the 541st Combat
Sustainment Support Battalion provided direct support to the 402nd AFSB. Specifically,
Army Field Support Battalion-Kuwait was responsible for retrograding major end items


1
  DODIG-2012-071, “DoD’s Management of the Redistribution Property Assistance Team Operations in

Kuwait,” April 10, 2012.

2
  We defined “self-redeploying units” as those units that drove their vehicles from Iraq to Kuwait for 

turn-in at the Camp Virginia RPAT. 



                                                    1

of equipment in accordance with item manager disposition instructions, and the
541st Combat Sustainment Support Battalion ran the day-to-day operations at the Camp
Virginia RPAT yard. The Communications-Electronics Command (CECOM) and
TACOM Life Cycle Management Command (TACOM) also supported equipment
retrograde by providing logistical expertise. CECOM officials assisted RPAT officials
inspect and identify equipment, and CECOM and TACOM officials provided equipment
disposition instructions, as necessary.

The Army Contracting Command-Rock Island (ACC-RI) provided acquisition support to
ASC and delegated contract administrative authority to Defense Contract Management
Agency (DCMA). DCMA delegated contract administrative authority to DCMA-Kuwait,
who monitored the contractor’s performance through the use of an administrative
contracting officer, quality assurance representative (QAR), and contracting officer’s
representative (COR).

RPAT Contract Awarded to ITT Systems Corporation
ACC-RI personnel awarded the Camp Virginia RPAT contract to ITT Systems
Corporation (ITT) on June 24, 2011. Specifically, the procuring contracting officer
modified an existing ITT contract3 to include RPAT operations at Camp Virginia. The
new contract line item number was established through a firm-fixed-price modification to
the contract, for work to be completed at Camp Virginia through February 29, 2012,
valued at approximately $3.6 million. Although the RPAT mission at Camp Virginia
ended in February 2012, the overall contract included four option years. ACC-RI
exercised option year two on February 29, 2012, which included other RPAT operations
in Kuwait.

Systems That Provide Accountability and Visibility
of Equipment
Army and contracting officials used four inventory systems to maintain accountability
and visibility of equipment turned-in at the Camp Virginia RPAT yard. The two
accountability systems were the Property Book Unit Supply Enhanced (PBUSE) and
Logistics Modernization Program (LMP). PBUSE is the Army’s unit level standard
property book, and LMP is the Army’s wholesale accountable system. For the Army to
appropriately “account for” equipment, it should be in one of these two accountability
systems.

The two visibility systems were TPE Planner and Army War Reserve Deployment
System (AWRDS). Army units used TPE Planner to identify excess equipment in
theater. TPE Planner also allowed units to automate the vetting process for theater lateral
transfers, redistribution, and turn-in decisions for TPE. AWRDS is an automated
repository system for Army logistics data that provides real-time visibility of equipment.




3
    Contract W911SE-07-D-0006/BA02 included retrograde operations at Camp Arifjan, Kuwait.


                                                   2

AWRDS is the “feeder” system to LMP, and the Army used it to provide readiness and
inventory information and to facilitate communication from the unit level to the
wholesale level.

Process to Establish Wholesale Accountability
Camp Virginia RPAT contractors were responsible for using the accountability and
visibility systems to establish wholesale accountability of the items received. Before
redeploying, the units uploaded their equipment into TPE Planner, which generated
DD Form 1348-1A, “Issue Release/Receipt Document,” (hand receipts) for the items the
unit would turn-in at the RPAT yard. Subsequent to the unit entering the yard, Army
officials and RPAT contractors inspected the equipment and relieved the unit of
accountability in PBUSE. Once the unit was relieved of accountability in PBUSE, the
RPAT contractors imported the equipment into AWRDS and LMP for wholesale
accountability and requested disposition from the item managers. Lastly, RPAT
contractors sent the equipment to its next destination, which was usually Camp Arifjan,
Kuwait. See Figure 1 for the Camp Virginia RPAT accountability process.

                Figure 1. Camp Virginia RPAT Accountability Process

                                         RETAIL SIDE



     Unit uploads          Unit arrives at                 Army officials       Contractors
   their equipment         Camp Virginia                  and contractors     relieve the unit
      into TPE             to turn in their               inspect the TPE    of accountability
       Planner                   TPE                                             in PBUSE


                                  Units are relieved of accountability



     Contractors             AWRDS                        Item managers      Items are sent to
   upload TPE into        updates LMP for                 give disposition       their next
     AWRDS for               wholesale                      instructions        destination
      visibility           accountability



                                     WHOLESALE SIDE

Source: DoD OIG.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the efficiency and effectiveness of the controls. We determined
that internal controls were not effective to provide reasonable assurance that ASC,


                                                 3

ACC-RI, or DCMA-Kuwait officials provided adequate oversight of the contractor when
uploading items into the inventory systems at Camp Virginia. Specifically, officials did
not update the performance work statement or appoint a COR timely, and the QAR and
COR audits were misleading and did not provide assurance that the contractor met
contract requirements. We will provide a copy of the report to senior officials at ASC,
ACC-RI, and DCMA-Kuwait who are responsible for internal controls.




                                           4

Finding. Army Needs to Improve Wholesale
Accountability Procedures
The Army did not have adequate controls over the accountability of major end items of
equipment turned-in at the Camp Virginia RPAT yard. Specifically, Camp Virginia
RPAT contractors did not use automated procedures to obtain wholesale accountability,
properly upload items into the visibility system, or account for all CECOM items at
Camp Virginia. This occurred because ASC and ACC-RI officials did not update the
performance work statement (PWS) to reflect operations at the Camp Virginia RPAT
yard. In addition, ACC-RI and DCMA-Kuwait officials did not appoint a COR until
5 months after the contractor began operations, and the QAR and COR audits were
misleading and did not provide assurance that the contractor met contract requirements.

As a result, ASC did not account for all items, did not account for items in a timely
manner, and had items with multiple records. Specifically, of 297 items4 turned-in at the
Camp Virginia RPAT yard from October through December 2011:

       84 items, valued at approximately $6.0 million, were not accounted for;
       149 items, valued at approximately $33.0 million, were accounted for but not
        within contract or Army Regulation time frames; and
       14 vehicles, valued at approximately $5.5 million, had multiple records in the
        inventory systems.

Inaccurate or delayed accountability of items in the inventory systems does not accurately
represent the Army’s assets and increases the vulnerability for loss or theft.

Accountability and Oversight Requirements
The contract required the RPAT contractors to use AWRDS, LMP, and other similar
inventory systems to account for all items received. The contract further required
compliance with Army Regulation 710-2, “Inventory Management, Supply Below the
National Level,” March 28, 2008, and Army Regulation 735-5, “Policies and Procedures
for Property Accountability,” February 28, 2005. The contract states that sensitive items
must be accounted for within 24 hours of receipt, and the contract and
Army Regulation 710-2 states that all other items must be accounted for within 3 days of
receipt. Army Regulation 735-5 further states that items must be accounted for during
shipment to another location.

The Defense Federal Acquisition Regulation Supplement and the DCMA-Kuwait and
COR appointment letters provide requirements for contract oversight. Specifically, the
Defense Federal Acquisition Regulation Supplement Section 201.602-2 requires the COR


4
 We selected these items based on the dates of our Camp Virginia RPAT site visit, high dollar value, and
another DoD OIG audit. See the appendix for more information.


                                                    5

to be qualified by training and experience commensurate with the responsibilities
delegated. ACC-RI delegated contract administration to DCMA, who further delegated
DCMA-Kuwait to provide on the ground contract oversight. DCMA-Kuwait
subsequently appointed a COR who was nominated by the 541st Combat Sustainment
Support Battalion based on experience. The COR was responsible for providing contract
oversight of Camp Virginia RPAT day-to-day operations. According to the COR
appointment letter, the COR was to verify that the contractor performed the requirements
of the contract by conducting monthly audits using a checklist and submitting the results
to the DCMA-Kuwait QAR.

Better Controls Needed for the Accountability of Items
The Army did not have adequate controls over the accountability of items turned-in at the
Camp Virginia RPAT yard. Once self-redeploying units were relieved of accountability
in PBUSE, RPAT contractors did not properly upload the items into AWRDS and LMP
to obtain wholesale accountability. Specifically, the contractors did not use automated
procedures when uploading items into LMP, upload items into the correct AWRDS plans,
or account for all CECOM items turned-in at the Camp Virginia RPAT yard.

Contractors Did Not Use Automated Procedures
Camp Virginia RPAT contractors did not use automated procedures to account for items
on the wholesale record. Instead, once the units were relieved of accountability in
PBUSE, the contractors manually entered items from printed hand receipts into AWRDS,
rather than electronically transferring the items from TPE Planner. According to ASC
officials, to meet the 24 and 72-hour required processing time frames and to model Iraq
RPAT procedures, the Camp Virginia RPAT                  RPAT contractors did not use
contractors should have used an automated process          automated procedures to
to obtain wholesale accountability. Specifically,           account for items on the
the contractors should have electronically                     wholesale record.
transferred the items from TPE Planner to an
AWRDS accountable plan. Once the items were in an AWRDS accountable plan,
AWRDS would have automatically updated LMP. After the items were in LMP, the
contractor should have requested disposition instructions from the item manager. Upon
receiving those instructions, Camp Virginia RPAT contractors should have transferred
the items into an AWRDS in-transit plan for shipment to their next destination. See
Figure 2 for the correct automated process for obtaining wholesale accountability.

             Figure 2. Automated Process for Wholesale Accountability

                               AWRDS                            AWRDS
                    TPE                          LMP
  PBUSE                       Accountable                      In-Transit     Ship Items
                   Planner                   Accountability
                                 Plan                             Plan
Source: DoD OIG.

ASC officials also stated that manually uploading the items into AWRDS increases the
risk of human errors and duplicate records. For example, when manually entering items
into AWRDS, Camp Virginia RPAT contractors stated that they could not upload some


                                            6

items using the document number on the hand receipt, so they intentionally changed
some of the numbers. Specifically, they changed the first six characters so they could
upload the items into AWRDS.5 However, they were not able to upload the items at
Camp Virginia because contractors in Iraq already uploaded the items into AWRDS.
Had the contractors at Camp Virginia used the automated process, they would have
identified that the items were already in AWRDS. In addition to causing duplicate
records, ASC officials also stated that manually uploading items into AWRDS records
the items as “found on installation,” instead of being turned-in by the owning unit.
Therefore, it may appear in TPE Planner as if the unit never turned in their equipment.

Contractors Uploaded Items Into the Wrong AWRDS Plans
Camp Virginia RPAT contractors uploaded items into the wrong AWRDS plans.
Specifically, they uploaded items directly into an AWRDS in-transit plan rather than an
                                         AWRDS accountable plan. Then, instead of
     Instead of accounting for the       accounting for the items at Camp Virginia, the
      items at Camp Virginia, the        contractors sent the items to Camp Arifjan and
     contractors sent the items to       contractors at that location accounted for the
   Camp Arifjan and contractors at       items in LMP. This process is not in accordance
    that location accounted for the      with the contract or Army Regulation 735-5. The
             items in LMP.               contract requires the contractor to upload the
items into AWRDS and LMP at Camp Virginia, and Army Regulation 735-5 requires
items to be accounted for during shipment to another location. In addition, processing the
items at two different locations created delays in obtaining wholesale accountability.

Contractors Did Not Account for All CECOM Items
Camp Virginia RPAT contractors did not account for all CECOM items at
Camp Virginia. The contractors stated that they were instructed not to upload CECOM
items into AWRDS and LMP at Camp Virginia. CECOM officials wanted to clean,
pack, and ship their own items. However, Camp Virginia did not have the facilities to
clean equipment. Therefore, CECOM did not permanently place officials at the
Camp Virginia RPAT yard from October through November 2011 to perform these
duties. Instead, they inspected the equipment once it arrived at Camp Arifjan, or they
sent CECOM officials to Camp Virginia to inspect equipment if RPAT officials
requested their assistance. Although RPAT contractors removed CECOM items from
PBUSE at Camp Virginia, they shipped most items to Camp Arifjan before contractors
uploaded them into AWRDS and accounted for them in LMP. The contractor sending
the items to Camp Arifjan without uploading them into AWRDS and LMP is not in
accordance with the contract or Army Regulation 735-5 and increased the time frame for
accounting for sensitive CECOM items.




5
 The first six characters encompassed the DoD Activity Address Code, which consisted of letters and
numbers. Contractors changed the first six characters to the Camp Virginia DoD Activity Address Code.


                                                   7

PWS and Contract Oversight Need Improvement
ASC and ACC-RI officials did not update the PWS to reflect operations at the
Camp Virginia RPAT yard. In addition, ACC-RI and DCMA officials did not appoint a
COR until 5 months after the contractor began operations, and the COR and QAR audits
were misleading and did not provide assurance that the contractor met contract
requirements.

Army Officials Did Not Update the PWS
ACC-RI officials did not update the PWS to reflect operations at the Camp Virginia
RPAT yard. ACC-RI awarded the Camp Virginia RPAT contract to ITT because ITT
was already performing some of the same functions under the Camp Arifjan contract.
Therefore, instead of updating the PWS with a specific section for RPAT requirements,
ACC-RI officials stated that the RPAT requirements were listed throughout several tasks
of the Camp Arifjan PWS. However, unclear
RPAT requirements in the PWS caused the                  ASC, ACC-RI, DCMA-Kuwait,
contractors to be unsure of how to properly              and contractor officials could
achieve accountability of the equipment. For              not easily determine which
example, the PWS did not clearly state that the             requirements were also
contractor was to use an automated process to           applicable to RPAT operations...
account for items and upload them into the
inventory systems within specific time frames at the Camp Virginia RPAT. Therefore,
contractors stated that sending items to and uploading items at Camp Arifjan was still in
compliance with the contract. In addition, although the RPAT requirements were
included in the PWS, the accountability requirements were comingled throughout four
separate sections and they all specifically related to Camp Arifjan operations. Therefore,
ASC, ACC-RI, DCMA-Kuwait, and contractor officials could not easily determine which
requirements were also applicable to RPAT operations at Camp Virginia.

The Commander, ASC, should clearly define, develop, and disseminate wholesale
accountability procedures to all officials involved with wholesale accountability. The
Commander should also update the PWS to include specific RPAT requirements and
clarify the automated process. Although Federal Acquisition Regulation Subpart 37.6,
“Performance-Based Acquisition,” only requires the PWS to state the contract desired
outcome rather than provide details on how the contractor should complete the work, due
to the technical nature of the inventory systems and the need to use them in conjunction
with one another, including more specific RPAT requirements and clarifying the
automated procedures in the PWS should increase wholesale accountability. The
Commander, ASC, should provide the revised PWS to the Executive Director, ACC-RI,
to modify the contract with the PWS changes.  
 
DCMA-Kuwait officials also stated that they reference the PWS when developing their
oversight checklists. However, because the PWS did not include clearly defined RPAT
requirements, DCMA-Kuwait checklists were inadequate to validate the contractor’s
performance during audits. Instead, they used existing checklists for the Camp Arifjan
retrograde tasks listed in the PWS, and the COR and QAR determined that the majority
of the tasks were not applicable to Camp Virginia. Once the PWS and contract are


                                            8

updated with specific and clearly defined RPAT requirements, the Commander,
DCMA-Kuwait, should develop checklists for the QAR and COR to use during monthly
audits of RPAT operations that reflect the PWS and contract changes.

Inadequate Contractor Oversight
ACC-RI and DCMA-Kuwait officials did not provide adequate oversight of contractors
at the Camp Virginia RPAT yard. Specifically, ACC-RI and DCMA-Kuwait officials did
not appoint a COR until 5 months after the contractor began operations. In addition, the
QAR and COR audits, which another DCMA-Kuwait QAR approved, were misleading
and did not provide assurance that the contractor met contract requirements.

No COR Oversight for 5 Months
ACC-RI and DCMA-Kuwait officials did not appoint a COR to provide oversight of
Camp Virginia RPAT operations until November 22, 2011, which was approximately
5 months after the contractor arrived at the Camp Virginia RPAT yard and 1 month after
units started turning in equipment. Although the contract stated that a COR would
provide oversight to ensure the contractor met contract requirements, the procuring
contracting officer did not appoint a COR or direct a Camp Arifjan COR operating under
the same contract to provide oversight at Camp Virginia. In addition, DCMA-Kuwait
was delegated contract administration authority on August 7, 2011, and the
DCMA-Kuwait administrative contracting officer did not appoint a COR until
November 22, 2011. Had the procuring contracting officer appointed or assigned a COR
to Camp Virginia or had the administrative contracting officer appointed a COR in a
timely manner, the COR could have identified that the contractor was not using the
automated process for obtaining wholesale accountability or meeting the requirements of
the contract. Therefore, the Executive Director, ACC-RI, should perform a review of the
procuring contracting officer, and the Commander, DCMA-Kuwait, should perform a
review of the administrative contracting officer and initiate administrative actions as
appropriate.

Misleading QAR and COR Audits
The QAR and COR audit reports, which the DCMA-Kuwait QAR approved, were
misleading and did not provide assurance that the contractor met requirements. For
                                       example, subsequent to conducting an audit of
     The QAR and COR audits…           RPAT operations on December 20, 2011, the COR
     were misleading and did not       concluded in the report that the contractor
      provide assurance that the       accounted for all vehicles and sensitive items at
    contractor met requirements.       Camp Virginia within required time frames. The
COR specifically stated that the contractor met the contract requirement to upload and
account for sensitive items in AWRDS and LMP within 24 and 72 hours, 100 percent of
the time. However, in that same report, the COR stated that the contractor did not
account for some items because the contractor sent the items to Camp Arifjan rather than
uploading the items into AWRDS and LMP at Camp Virginia, which was a contract
requirement. These statements are conflicting and do not provide assurance that the
contractor met requirements 100 percent of the time.



                                           9
The QAR audits were also misleading and did not provide assurance that the contractor
met requirements. For example, subsequent to conducting an audit of RPAT operations
on January 18, 2012, the QAR concluded that the contractor uploaded 100 percent of the
items received into AWRDS at Camp Virginia. In that same report, the QAR stated that
uploading items into AWRDS was “not applicable” because items that are transferred to
Camp Arifjan are not uploaded into AWRDS. However, the contract requires the
contractor to account for all items at Camp Virginia, and Army Regulation 735-5 requires
items to be accounted for during shipment.

The Executive Director, ACC-RI, in coordination with the administrative contracting
officer, DCMA-Kuwait, should perform a review of the COR actions for conducting
inadequate contract oversight and initiate administrative actions as appropriate. The
Commander, DCMA-Kuwait, should also review the actions of the QAR for not
adequately reviewing audit reports or conducting audits and initiate administrative
actions as appropriate. In addition, the ACC-RI and DCMA-Kuwait officials should
review the COR and QAR audits and reassess whether the contractor met contract
requirements. If the contractor did not meet requirements, the Executive Director should
determine whether any remedial actions are appropriate.

Changes Needed to Improve the Accountability of Items
The Army did not account for all items turned-in at Camp Virginia, did not account for
items in a timely manner, and had items with multiple records. Specifically, of 297 items
turned-in at the Camp Virginia RPAT yard from October through December 2011:

       84 items, valued at approximately $6.0 million, were not accounted for;
       149 items, valued at approximately $33.0 million, were accounted for but not
        within contract or Army Regulation time frames; and
       14 vehicles, valued at approximately $5.5 million, had multiple records in the
        inventory systems.

Items Without Accountability in LMP
Of the 297 hand receipts we reviewed, 84 items were not accounted for in LMP.
Specifically, 8 items were not recorded in any visibility or accountability system, and
76 items were visible in AWRDS but were not accounted for in LMP. The eight items
included seven Defense Advanced Global Positioning System (GPS) Receivers (DAGR)6
and one Mine Resistant Ambush Protected (MRAP) vehicle, with a total value of
approximately $712,842 (see Table 1 on page 11). DAGRs are sensitive military devices
that should have been accounted for in LMP within 24 hours of receipt.




6
 A DAGR is a self-contained, hand held receiver that processes GPS signals to provide position, velocity,
and time information.


                                                   10 

        Table 1. Items Not Recorded in Any Visibility or Accountability System
          Item              Quantity            Unit Cost            Total Cost
    DAGR                       7                                      $ 23,842
    MRAP                       1                 689,000               689,000
    Total                      8                                      $712,842

The 76 items that were visible in AWRDS but not accounted for in LMP included
48 improvised explosive device jammers (jammers), 25 DAGRs, and 3 vehicles, with a
total value of approximately $5,273,494 (see Table 2). Further, the 48 jammers and
25 DAGRs were sensitive items and had no accountability for at least 120 days7.

                          Table 2. Visible Items Without Accountability
           Item                   Quantity            Unit Cost                         Total Cost
    Jammers                          48                $ 68,928                         $3,308,544
    DAGR                             25                   3,406                             85,150
    Vehicles                          3                626,600*                          1,879,800
    Total                            76                                                 $5,273,494
* The three vehicles cost approximately $300,000; $495,000; and $1,084,800. The average is $626,600.

Items Not Accounted for in a Timely Manner
Camp Virginia RPAT contractors did not upload items into LMP in a timely manner.
Specifically, the contract requires items to be brought to record within 24 or 72 hours of
receipt. We identified that 149 items, valued at
                                                          The longest processing times
approximately $33.0 million, were not uploaded
                                                            [for TACOM and CECOM
into LMP within those time frames. Specifically,
                                                           items] were 95 and 83 days,
the average processing time for TACOM and
                                                                   respectively.
CECOM items were about 12 and 43 days, 

respectively, and the longest processing times were 95 and 83 days, respectively. Items 

that are not brought to record in a timely manner increase the vulnerability for loss or 

theft and provide the item managers with inaccurate accountability. 


Items With Multiple Records Existed
The Army did not have asset accountability of vehicles because multiple records of the
same item existed in LMP. We reviewed the records of all 95 vehicles from the hand
receipts we obtained and determined that 12 vehicles had 2 records in LMP and
2 vehicles had 3 records. The 14 vehicles were valued at approximately $5.5 million.
Inaccurate accountability in LMP increases the risk of TACOM officials providing
multiple disposition instructions for the same vehicle, which could also cause officials in
Kuwait additional work trying to locate nonexisting vehicles for shipment.




7
    We calculated the 120 days using March 6, 2012, data. Therefore, the time frame could be longer.


                                                     11 

The Commander, ASC, should conduct a reconciliation of all items turned-in at the
Camp Virginia RPAT yard to validate the accuracy of the Army’s wholesale accountable
record. In addition, the Executive Director, ACC-RI, should review the results of the
reconciliation and, for any items the contractor did not account for or did not account for
within contract requirements, determine if any actions against the contractor are
appropriate.

Improving the Efficiency and Effectiveness of Other
RPAT Operations
Camp Virginia RPAT operations ended in February 2012, but other RPAT operations
still exist under the same contract in Kuwait. Therefore, the results and recommendations
in this report can be used to improve the efficiency and effectiveness of the other Kuwait
RPAT and future RPAT operations. Maintaining accurate accountability of equipment is
imperative as the Army draws down from contingency operations, such as Afghanistan.
Inaccurate or delayed accountability of items in the accountable systems provides a
misrepresentation of the Army’s assets and increases the vulnerability for loss or theft,
which could have military or economic ramifications.

Management Actions Taken to Improve
Wholesale Accountability
On April 20, 2012, we provided ASC officials a list of the items that were missing, not
accounted for in LMP, and that had multiple records. Specifically, we provided officials
with details regarding 8 missing items, 73 items in AWRDS but not in LMP, and
12 items with duplicate records. ASC officials subsequently researched the items and, as
of June 18, 2012, officials accounted for 5 missing items, located and accounted for
44 items that were not in LMP, and eliminated 5 duplicate records. The Army will
continue to improve wholesale accountability as ASC officials identify the remaining
items and implement Recommendation 1.a.

Recommendations, Management Comments, and
Our Response
1. We recommend that the Commander, Army Sustainment Command:

       a. Conduct a reconciliation of all items turned-in at the Camp Virginia
Redistribution Property Assistance Team yard to validate the accuracy of the
Army’s wholesale accountable record.

      b. Clearly define the wholesale accountability process, develop written
procedures to include an explanation of how the accountability and visibility
systems should be used and the impact of not following the stated process, and
disseminate the procedures to all officials involved with wholesale accountability.

       c. Update the performance work statement for
contract W911SE-07-D-0006/BA02 to include a specific section with performance


                                            12 

measures for Redistribution Property Assistance Team operations, and provide the
updated performance work statement to the Army Contracting Command-Rock
Island to be incorporated into the contract.

ASC Comments
The Executive Deputy to the Commanding General, Army Materiel Command, endorsed
and forwarded comments from the Executive Director, ASC, responding for the
Commander, ASC. The Executive Director agreed with Recommendations 1.a-c and
stated that a reconciliation of AWRDS and LMP will be completed at Camp Arifjan since
the records were transferred from Camp Virginia to Camp Arifjan on June 19, 2012. The
Executive Director also stated that on September 4, 2012, ASC officials deployed a
property accountability team to Southwest Asia to assist with the reconciliation. The
team will brief the reconciliation results to the Commanding General, ASC by
October 30, 2012, and will implement procedures to resolve any remaining wholesale
accountability concerns by November 30, 2012. The Executive Director further stated
that ASC officials provided wholesale accountability and visibility desk guides to
officials in the field, and compliance with the guidance will be inspected by the ASC staff
during upcoming staff visits. The Executive Director also stated that the PWS was
updated and the proper oversight support was in place. Lastly, the RPAT operational
support mission at Camp Virginia and site closure procedures were completed in
July 2012.

Our Response
Comments from the Executive Director were responsive, and no additional comments are
required.

2. We recommend that the Executive Director, Army Contracting Command-Rock
Island:

       a. Once Recommendation 1.a is complete, review the results of the inventory
reconciliation and, in coordination with the administrative contracting officer,
Defense Contract Management Agency-Kuwait, review the quality assurance
representative and contracting officer’s representative audits to determine whether
the contractor met contract requirements. If the contractor did not meet
requirements, determine whether any remedial actions are appropriate.

       b. Once Recommendation 1.c is complete, modify
contract W911SE-07-D-0006/BA02 to add the performance work statement changes
regarding Redistribution Property Assistance Team operations.

      c. Perform a review of the procuring contracting officer for not appointing a
contracting officer’s representative timely and initiate administrative actions as
appropriate.

      d. In coordination with the administrative contracting officer, Defense
Contract Management Agency-Kuwait, perform a review of the contracting


                                            13 

officer’s representative for conducting inadequate oversight of
contract W911SE-07-D-0006/BA02 and initiate administrative actions as
appropriate.

ACC-RI Comments
The Executive Deputy to the Commanding General, Army Materiel Command and the
Commander, ACC, endorsed and forwarded comments from the Executive Director,
ACC-RI. The Executive Director agreed with Recommendations 2.a and 2.b. For
Recommendation 2.a, the Executive Director stated that reviewing the QAR and COR
audits were common ACC-RI practices whenever contract performance is questioned. In
addition, the Executive Director stated that the target date for completion is dependent
upon ASC’s completion of Recommendation 1.a. For Recommendation 2.b, the
Executive Director stated that routine contract modifications are conducted to incorporate
PWS changes after the changes and additional funding (if needed) are received from the
requiring activity. The Executive Director further stated that the target date for
completion is dependent upon ASC’s completion of Recommendation 1.c.

The Executive Director disagreed with Recommendations 2.c and 2.d. For
Recommendation 2.c, the Executive Director stated that only properly trained personnel
can be nominated by the requiring activity for COR appointments and the delays with
COR appointments were due to nonavailability of qualified unit personnel to serve as
CORs. The Executive Director also stated ACC-RI and DCMA do not provide personnel
to serve as CORs and DCMA-Kuwait appointed a qualified COR as soon as the person
completed the required training and was nominated by 541st Combat Sustainment
Support Battalion. Therefore, the Executive Director stated that ACC-RI does not
believe administrative actions against the procuring contracting officer are appropriate.

The Executive Director disagreed with Recommendation 2.d stating DCMA-Kuwait was
responsible for appointing the COR for the contract. Specifically, the Executive Director
stated ACC-RI credits DCMA and the CORs with providing a level of oversight
commensurate with the PWS in effect during the DoD OIG audit time frame. The
Executive Director also stated the checklists DCMA used for providing contractor
oversight were labeled inadequately within the DoD OIG draft report. ACC-RI did not
agree with the conclusion since the checklists were based on the PWS that was
contractually in effect at the time of the DoD OIG audit. The Executive Director stated it
would be inappropriate to attempt to hold a contractor to standards that fall outside the
scope of the PWS.

Our Response
Comments from the Executive Director were responsive to Recommendations 2.a and
2.b, and no additional comments are required. The Executive Director’s comments on
Recommendation 2.c were partially responsive. Although we understand a new qualified
COR might not have been available for appointment, the procuring contracting officer
could have directed one of the existing CORs under the same contract at Camp Arifjan to
provide oversight at Camp Virginia. ACC-RI should consider this action for ongoing and
future contracts. While the Executive Director disagreed with the recommendation, his


                                            14 

comments provided reasons why ACC-RI believed administrative action against the
procuring contracting officer was not necessary. Therefore, ACC-RI met the intent of the
recommendation, and no additional comments are required.

Regarding Recommendation 2.d, the Executive Director deferred the responsibility of
reviewing the COR’s actions to solely DCMA-Kuwait, which did not ensure increased
and effective oversight on a contract valued at approximately $3.6 million. We agree that
DCMA-Kuwait was responsible for appointing a COR; however, reviewing the COR’s
actions and determining whether administrative action is appropriate are shared
responsibilities between ACC-RI and DCMA-Kuwait. Federal Acquisition
Regulation Subpart 1.602, “Contracting Officers Responsibilities,” states that the
contracting officer is ultimately responsible for ensuring the contractor meets the terms of
the contract. Therefore, the contracting officer should participate in a review of the COR,
instead of avoiding accountability for oversight. We directed Recommendation 2.d to the
Executive Director, in coordination with DCMA-Kuwait, because both organizations
should work together to achieve the optimal result. Further, as discussed in the report,
the checklists were partly inadequate because the PWS was not written to appropriately
impose requirements on the contractor. Also, we did use the checklists and audits that
were in place during our audit. Lastly, we did not suggest holding the contractor to
standards not in the contract. Consequently, the Executive Director’s comments were
nonresponsive. We request that the Executive Director work with DCMA-Kuwait and
provide additional comments in response to the final report.

3. We recommend that the Commander, Defense Contract Management
Agency-Kuwait:

      a. Update the checklists used by the quality assurance representative and
contracting officer’s representative once Recommendation 2.b is implemented.

        b. Perform a review of the administrative contracting officer for not
appointing a contracting officer’s representative timely and the quality assurance
representative for not adequately reviewing audit reports or conducting audits.
Initiate administrative actions as appropriate.

DCMA-Kuwait Comments
The Commander, DCMA International, responding for the Commander, DCMA-Kuwait,
agreed with Recommendations 3.a and 3.b. The Commander stated DCMA-Kuwait
would update the appropriate contract documents and oversight procedures as required by
performance work statement changes. The Commander also stated DCMA-Kuwait
reviewed the circumstances surrounding the internal control weaknesses and took
appropriate administrative actions.

Our Response
Comments from the Commander were responsive, and no additional comments are
required.



                                            15 

Appendix. Scope and Methodology
We conducted this performance audit from September 2011 through July 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our conclusions based on our audit. We believe that the
evidence obtained provides a reasonable basis for our conclusions based on our audit
objectives.

This is one in a series of audits on RPAT operations in Kuwait. Therefore, some of the
meetings and observations occurred during fieldwork for Report No. DODIG-2012-071,
“DoD’s Management of the Redistribution Property Assistance Team Operations in
Kuwait,” April 10, 2012. Specifically, we conducted interviews, observed RPAT
operations, and obtained hand receipts from October through December 2011. To
accomplish our audit objective, we conducted additional interviews, reviewed and
analyzed documents, and tested the accountability of items turned-in at the
Camp Virginia RPAT.

We coordinated with or interviewed officials from Army G-4, U.S. Central Command,
U.S. Army Central, 402nd AFSB, 541st Combat Sustainment Support Battalion, 

Army Field Support Battalion-Kuwait, Responsible Reset Task Force, U.S. Army

Materiel Command, ASC, ACC-RI, CECOM, TACOM, DCMA-Kuwait, and contractors. 

We also reviewed and analyzed Federal, DoD, and Army criteria; the contract; the PWS; 

RPAT standard operating procedures; and COR checklists and audits. We conducted site 

visits to Camp Virginia from October 2011 through December 2011. During our site 

visits, we observed units processing through the RPAT yard and contractors relieving the 

units of accountability in PBUSE and uploading the items into AWRDS and LMP. 


To determine whether the Army had accountability over items turned-in at Camp
Virginia, we tested the visibility and accountability of items received. Specifically, we
collected 1,281 hand receipts for items turned-in at the Camp Virginia RPAT yard from
October through December 2011. The hand receipts included items processed from
October 19 through 28, 2011; on November 5, 10, 17, and 25, 2011; and from
December 1 through 12, 2011. From the 1,281 hand receipts, we selected all jammers,
DAGRs, and vehicles. This included 107 jammers, 95 DAGRS, and 95 vehicles, totaling
297 items. We selected the two CECOM items (DAGRs and jammers) based on cost and
a DoD OIG audit on DAGRs.

We coordinated with ASC, TACOM, and CECOM officials to determine whether our
selected items were recorded in PBUSE, LMP, or AWRDS. Specifically, we obtained
and analyzed spreadsheets generated by those systems and searched for specific items in
the spreadsheets. Additionally, we conducted a site visit to ASC and observed
contractors searching for the items in the different accountability and visibility systems.
Subsequent to determining whether the items were in the systems, we calculated the time
frames for uploading the items into each system, performed a location test to determine
where each item was uploaded, and searched for duplicate records.



                                            16 

Use of Computer-Processed Data
We used computer-processed data from TPE Planner, PBUSE, AWRDS, and LMP to
determine whether RPAT contractors at Camp Virginia properly uploaded items into
AWRDS and LMP. Specifically, we collected and reviewed 297 hand receipts for items
turned-in at the Camp Virginia RPAT yard and tested the accountability of those items in
the accountability systems. To assess the reliability of the data and determine asset
accountability, we traced the 297 items through the accountability systems, observed the
data entry process at the Camp Virginia RPAT yard, and observed contractors who
searched for items in AWRDS and LMP during a site visit to ASC. Our assessment of
the items indicated that 84 items were not accounted for, 149 items were accounted for
but not within contract or Army Regulation time frames, and 14 vehicles had multiple
records in the inventory systems. Throughout the audit, we discussed and validated our
results with ASC, CECOM, and TACOM officials. We determined that the computer-
processed data was sufficiently reliable to support our findings and conclusions. The
property accountability issues are discussed in this report.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), Department of
Defense Inspector General (DoD IG), and the Army Audit Agency have issued seven
reports discussing RPAT operations and accountability of Government equipment.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted Army Audit Agency reports can be accessed at https://www.aaa.army.mil/.

GAO
GAO-11-774, “Iraq Drawdown: Opportunities Exist to Improve Equipment Visibility,
Contractor Demobilization, and Clarity of Post-2011 DOD Role,” September 16, 2011

GAO-08-930, “Operation Iraqi Freedom: Actions Needed to Enhance DOD Planning for
Reposturing of U.S. Forces from Iraq,” September 10, 2008

DoD IG
DoD IG Report No. DODIG-2012-071, “DoD’s Management of the Redistribution
Property Assistance Team Operations in Kuwait,” April 10, 2012

DoD IG Report No. D-2010-091, “DOD Needs to Improve Management and Oversight
of Operations at the Theater Retrograde-Camp Arifjan, Kuwait,” September 30, 2010

DoD IG Report No. D-2010-088, “Accountability and Disposition of Government
Furnished Property in Conjunction with the Iraq Drawdown – Logistics Civil
Augmentation Program,” September 30, 2010




                                           17 

Army
Army Audit Agency Report A-2011-0077-ALL, “Follow-up Audit of Retrograde
Operations in Iraq Class VII Theater Provided Equipment,” April 12, 2011

Army Audit Agency Report A-2011-0063-ALL, “Redistribution Property Assistance
Teams,” February 14, 2011




                                       18 

Army Materiel Command Comments





               Click to add JPEG file




                                19
Army Sustainment Command Comments





               Click to add JPEG file




                                20
21
22
Army Contracting Command Comments





               Click to add JPEG file




                                23
Army Contracting Command-Rock Island Comments





                Click to add JPEG file




                                 24
Click to add JPEG file




                 25
Click to add JPEG file




                 26
Defense Contract Management Agency Comments





                Click to add JPEG file




                                 27
Click to add JPEG file




                 28
